No.

In The
Supreme Court of the United States

EUGENE JACOBS, JR.
Petitioner-Appellant,
v.
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
Respondent-Appellee.

PROOF OF SERVICE
I, EUGENE JACOBS, JR., do swear or declare that on this date,
as required by Supreme Court Rule 29 I have served the enclosed MOTI0NFOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT
OF CERTIORARI on each party to the above proceeding or that party’s counsel,
and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to
each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The name(s) and address(es) of those served are as follows: Ashley Moody, AG,
Office of the Attorney General, The Capitol, PL-01, Tallahassee, FL 32399-1050.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on:

Z&t/

